DOE/IG-0547




INSPECTION
                                    INSPECTION OF THE
  REPORT                      LICENSING OF TRADE SECRETS BY
                              SANDIA NATIONAL LABORATORIES




                                       MARCH 2002




 U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL
    OFFICE OF INSPECTIONS
                          U.S. DEPARTMENT OF ENERGY
                                Washington, DC 20585

                                     March 22, 2002



MEMORANDUM FOR THE SECRETARY

FROM:                         Gregory H. Friedman /s/
                              Inspector General

SUBJECT:                      INFORMATION: Inspection Report on “Licensing of
                              Trade Secrets by Sandia National Laboratories”

BACKGROUND

The Office of Inspector General (OIG), U.S. Department of Energy (DOE), initiated an inspection
into the facts and circumstances surrounding the issuance of a trade secret license in June 2000 by
Sandia National Laboratories (Sandia) at Livermore, California, to Axsun Technologies (Axsun), a
private company. This inspection was initiated after the OIG received allegations that the issuance
of the Axsun license was in violation of both DOE policy and the requirements of Sandia’s
management and operating contract. It was alleged that Sandia had been advised for many years
that DOE policy prohibited the national laboratories from creating, maintaining or marketing trade
secrets. The allegation suggested that the licensing of trade secrets by Sandia had been prevalent
over the years, and that the Axsun license was only the most recent in a history of willful
misconduct by the laboratory.

The objectives of this inspection were to determine if: (1) Sandia violated the provisions of
its management and operating contract and DOE policy by issuing trade secret licenses; (2)
Sandia violated the DOE statutory mandate to widely disseminate the results of research and
development at DOE facilities; (3) Sandia appropriately used the provisions of the Freedom
of Information Act in justifying its trade secret activities; and (4) Sandia’s actions exposed
DOE to the potential risk of extensive liability.

RESULTS OF INSPECTION

Sandia created a form of intellectual property protection (i.e., a trade secret) not covered by
any clause in its management and operating contract when it issued a trade secret license to
Axsun Technologies, and when it issued trade secret licenses to 10 other companies since
1995. In issuing these licenses, Sandia licensed information and data owned by DOE without
DOE’s knowledge. In doing so, Sandia (1) disregarded DOE policy prohibiting the creation,
maintenance, and licensing of trade secrets; and (2) disregarded DOE’s statutory mandate to
widely disseminate the results of research and development at DOE facilities. In
commenting on a draft of this report, DOE management stated that Sandia was advised both
verbally and in writing over the course of approximately 10 years that DOE policy prohibited
the licensing of trade secrets.
Sandia’s management and operating contract provides for the licensing of technical data and
computer software first-produced by the contractor. However, the contract does not include
any provision for the licensing of trade secrets or “Commercially Valuable Information.” In
fact, DOE has traditionally interpreted its statutory mandate to widely disseminate the results
of research and development at DOE facilities as prohibiting the licensing of data “first-
produced” at a laboratory as a trade secret. Sandia, by issuing trade secret licenses, assumed
a licensable property right for Commercially Valuable Information that did not exist.

Sandia’s trade secret licensing activities exposed DOE to the risk of releasing information or
technical data without review for consideration of national security interests. Sandia’s
activities also exposed DOE to potential liability and the risk of legal action by a licensee in
the event DOE were to disclose or release the technical information that was the subject of
the trade secret. In addition, Sandia’s trade secret activity may have resulted in the
inappropriate collection of $617,422 in royalties on eight trade secret licenses issued since
1995. The costs incurred in connection with this unauthorized activity may be unallowable.

We recommended that all Sandia licenses that contain trade secret information be reviewed
and a determination be made as to whether or not these licenses can be modified to comply
with the management and operating contract, DOE policy, and the DOE statutory mandate.
We also recommended a review of the collection and retention of trade secret royalty fees
received by Sandia to determine if Sandia’s actions resulted in an inappropriate augmentation
of funds, and if these fees represented miscellaneous receipts that should have been deposited
into the General Fund of the Treasury. In addition, we recommended that all Department
laboratories be surveyed to determine if any facilities other than Sandia are inappropriately
issuing licenses for trade secrets or Commercially Valuable Information.

MANAGEMENT REACTION

Management concurred with the recommendations and has initiated, or is in the process of
initiating, appropriate corrective actions.

Attachment

cc: Deputy Secretary
    Administrator, National Nuclear Security Administration
    Under Secretary for Energy, Science and Environment
    Deputy Administrator for Defense Programs
    General Counsel
    Manager, Albuquerque Operations Office
    Director, Policy and Internal Control Management, NA-66
INSPECTION OF THE LICENSING OF TRADE SECRETS BY
SANDIA NATIONAL LABORATORIES
TABLE OF
CONTENTS       OVERVIEW
               Introduction and Objectives..………………………………. 1
               Observations and Conclusions……………………………. 2

               DETAILS OF FINDINGS

               Sandia’s Adherence to Management and
                Operating Contracting Provisions……………………….. 5

               Sandia’s Adherence to Department Policy on
                Trade Secret Licenses………………………………….… 6

               The Department’s Statutory Mandate to Widely
                Disseminate the Results of Research and
                Development at DOE Facilities……………………….…. 9

               Sandia’s Use of the Provisions of the Freedom of
                Information Act to Justify Their Trade Secret
                Licensing Activities………………………………………... 10

               Sandia’s Actions Created Two Potential
                Risks to the Department…………………………………. 11

               The Collection of Royalties on Trade Secret
                Licenses Are Questionable Under the
                Management and Operating Contract………………….. 12

               Sandia’s Trade Secret Activities May Have
                Resulted in Unallowable Costs………………………….. 13

               Trade Secret License Issued to Facilitate
                Transfer of Sandia Employees Without
                Adequate Conflict of Interest Determination…………… 14

               RECOMMENDATIONS……..……………………………... 16
               MANAGEMENT COMMENTS………………….………… 17
               INSPECTOR COMMENTS………………………………... 23

               APPENDICES
               I. Scope and Methodology……………………………….            24

               II. Relevant Criteria………………………………………..           26
Overview
INTRODUCTION                        The Office of Inspector General, U.S. Department
AND OBJECTIVES                      of Energy (DOE), initiated an inspection into the facts and
                                    circumstances surrounding the issuance of a “trade secret license”
                                    by Sandia National Laboratories (Sandia) at Livermore, California,
                                    to Axsun Technologies (Axsun), a private company. Sandia issued
                                    the trade secret license, or what the laboratory calls a
                                    “Commercially Valuable Information” (CVI) license, 1 on
                                    June 5, 2000, to Axsun, a company that develops and manufactures
                                    photonic subsystems for telecommunications equipment
                                    manufacturers. Axsun paid Sandia $470,000 for the CVI license
                                    and associated software. The CVI sold to Axsun consisted of a
                                    manual on the LIGA process; a technology originated in Germany
                                    about 20 years ago, which derived its name from the German
                                    acronym for the three-stage production process (Lithography,
                                    Plating, and Molding). 2

                                    In December 2000, the Director, Sandia-California Legal and
                                    Patent Center, informed the DOE Assistant General Counsel for
                                    Technology Transfer and Intellectual Property that Sandia had
                                    issued a trade secret license to Axsun. The DOE Albuquerque
                                    Patent Counsel subsequently requested that Sandia provide a
                                    listing of all their trade secret licenses. In response to this request,
                                    Sandia’s Chief Counsel for Intellectual Property provided DOE
                                    with a list of 10 trade secret licenses (not including the Axsun
                                    license) that had been issued by Sandia. Sandia’s Chief Counsel
                                    reported that the first trade secret license was issued in 1994, 3 and
                                    that similar licenses were still being issued.

                                    This inspection was initiated after the Office of Inspector General
                                    received allegations that the issuance of the Axsun license was in
                                    violation of both DOE policy and the requirements of Sandia’s
                                    management and operating (M&O) contract. It was alleged that
                                    Sandia had been advised for many years that DOE policy
                                    prohibited the national laboratories from creating, maintaining or




1
  Sandia has repeatedly referred to its licenses as “trade secret licenses,” so the terms “Trade Secret” and
“Commercially Valuable Information” will be used interchangeably throughout this report. However, it should be
noted that the General Counsel has taken the position that confusion is caused by using the terms “CVI” and “Trade
Secret” interchangeably. General Counsel argues that, although technical data first-produced at a DOE laboratory is
of similar character to and would be considered a “Trade Secret” if it were produced in the private sector, it should
not be referred to as a “Trade Secret.”
2
  LIGA is a process that uses synchrotron-based x-ray lithography to produce polymeric molds that are electroplated
to produce small, precise metal parts. LIGA is an alternative to using semiconductor techniques for making
microscopic parts because it allows the use of a variety of materials. Sandia’s cutting-edge LIGA program grew out
of a need to create small parts for defense applications.
3
   Sandia records show that the first trade secret license was issued in May 1995.

Page 1                                                Inspection of the Licensing of Trade Secrets by
                                                      Sandia National Laboratories
                                  marketing trade secrets. The allegation suggested that the
                                  licensing of trade secrets by Sandia had been prevalent over the
                                  years, and that the Axsun license was only the most recent in a
                                  history of willful misconduct by the laboratory.

                                  The objectives of this inspection were to determine if: (1) Sandia
                                  violated the provisions of its management and operating contract
                                  and DOE policy by issuing trade secret licenses; (2) Sandia
                                  violated the DOE statutory mandate to widely disseminate the
                                  results of research and development at DOE facilities; (3) Sandia
                                  inappropriately used the provisions of the Freedom of Information
                                  Act in justifying its trade secret activities; and (4) Sandia’s actions
                                  exposed DOE to the risk of releasing technical data without a
                                  review for national security interests, and the potential risk of
                                  extensive liability.

OBSERVATIONS AND                  Sandia asserted a right to license a type of intellectual property
CONCLUSIONS                       protection (i.e., a trade secret) not recognized or covered by any
                                  clause in its management and operating contract when it issued a
                                  trade secret license to Axsun Technologies in June 2000, and when
                                  it issued trade secret licenses to 10 other companies since 1995. In
                                  issuing these licenses, Sandia licensed information and data owned
                                  by DOE without DOE’s knowledge or approval. In so doing,
                                  Sandia: (1) disregarded DOE policy prohibiting the creation,
                                  maintenance, and licensing of trade secrets; (2) disregarded DOE’s
                                  statutory mandate to widely disseminate the results of research and
                                  development at DOE facilities; and (3) improperly used the
                                  provisions of the Freedom of Information Act in an attempt to
                                  justify their issuance of trade secret licenses.

                                  Sandia’s management and operating contract provides for the
                                  licensing, under certain circumstances, of technical data and
                                  computer software first-produced by the laboratory. However, the
                                  contract does not include any provision for the licensing of trade
                                  secrets or Commercially Valuable Information first-produced by
                                  Sandia. The only reference to a trade secret in Sandia’s contract is
                                  for data produced as a result of research and development activities
                                  conducted under a Cooperative Research and Development
                                  Agreement (CRADA)4 and licensed to a third party. 5 In fact, the
                                  Department has traditionally interpreted the Department’s statutory
                                  mandate to widely disseminate the results of research and
                                  development at DOE facilities as prohibiting the licensing of data

4
  CRADA’s are specifically referenced under DEAR 970.5204-40, “TECHNOLOGY TRANSFER MISSION,”
Subsection (n)(3)(iii), “Technology Transfer Through Cooperative Research and Development Agreements.”
5
  Data first-produced under a CRADA would be considered a trade secret if it had been obtained from a non-Federal
third party.


Page 2                                                                 Observations and Conclusions
         “first-produced” at a Laboratory as a trade secret. Sandia, by
         issuing trade secret licenses, assumed a licensable property right
         for Commercially Valuable Information that did not exist.

         Rather than working with DOE to identify a viable mechanism for
         the protection and dissemination of this type of intellectual
         property, Sandia chose not to disclose its activities. Once DOE
         learned of Sandia’s trade secret licensing activities, Sandia
         attempted to justify its actions through its own interpretations of
         the contract, DOE policy, and the provisions of the Freedom of
         Information Act. As a result, we concluded that Sandia’s trade
         secret licensing activities substantially weakened the cooperative
         relationship that had existed between DOE and Sandia in the
         technology transfer area.

         Sandia’s trade secret licensing activities exposed the Department to
         the risk of releasing information or technical data without review
         for the consideration of national security interests. This is
         especially troubling given that DOE was unaware of the existence
         of the license, and, therefore, had no opportunity to review the
         technical data for national security concerns. Sandia’s activities
         also exposed the Department to potential liability and the risk of
         legal action by a licensee in the event the Department were to
         disclose or release the technical information that was the subject of
         the trade secret.

         In addition, Sandia’s trade secret activity may have resulted in the
         inappropriate collection of $617,422 in royalties on eight trade
         secret licenses issued since 1995. Sandia is only allowed to retain
         royalties as a result of the performance of authorized technology
         transfer activities. Since Sandia’s trade secret licenses did not
         represent an authorized technology transfer activity, the question is
         raised as to whether Sandia inappropriately augmented its funds in
         violation of the Department of Energy Acquisition Regulations
         (DEAR); and whether Sandia should be allowed to retain the
         royalties associated with these licenses. In addition, since the
         licensing of trade secrets was not performed in accordance with the
         terms of Sandia’s management and operating contract, the costs
         incurred in connection with this unauthorized licensing activity
         may be unallowable.

         Sandia claimed that they used the CVI protection solely to make
         information that cannot be patented more attractive to industry.
         Sandia also claimed that CVI licensing was not about money, but
         about creating value for DOE programs and industry. However, in
         the case of the Axsun trade secret license, Sandia received



Page 3                                   Observations and Conclusions
         $400,000 for the CVI and $70,000 for software associated with the
         CVI. Sandia used the license to facilitate the transfer of two
         Sandia employees to Axsun in a manner that created the
         appearance of a conflict of interest.

         When informed of Sandia’s action in this area, the DOE
         Contracting Officer directed Sandia to suspend any further trade
         secret licensing activity. However, it is clear that there is
         commercially valuable technical information being developed by
         the national laboratories that cannot be licensed under existing
         DOE policy or contract provisions. We concluded that the
         Department should review the concept of licensing this type of
         technical information, and determine if there are licensing
         mechanisms that do not compromise DOE policy and its statutory
         mandate.




Page 4                                 Observations and Conclusions
Details of Findings
Sandia’s Adherence to               The Sandia management and operating contract contains clauses
Management and                      on Rights in Data-Technology Transfer, Patent Rights, and the
Operating Contracting               Technology Transfer Mission. Under this contract, DOE has
Provisions                          “Ownership of all technical data and computer software first-
                                    produced in the performance of the contract,” including the right to
                                    have delivery of any such computer software and technical data.
                                    The Intellectual Property protections in the contract include
                                    copyright for technical data, software and mask works, 6 patents or
                                    patent applications, as well as protected CRADA information.
                                    Sandia is allowed to license protected “Intellectual Property” only
                                    in accordance with the terms and conditions of the contract.

                                    The only reference to treating first-produced data as a trade secret
                                    in Sandia’s management and operating contract is under DEAR
                                    970.5204-40, “TECHNOLOGY TRANSFER MISSION,”
                                    Subsection (n), “Technology Transfer Through Cooperative
                                    Research and Development Agreements,” PART (3)(i),
                                    Withholding of Data. This clause states that certain data first-
                                    produced under a CRADA that would be considered a trade secret
                                    if it had been obtained from a non-federal third party, may be
                                    protected from disclosure under the Freedom of Information Act
                                    (See Appendix II). Under the CRADA provisions, the contractor
                                    is authorized to enter into licensing agreements with third parties
                                    for data developed by the contractor under a CRADA as long as
                                    the contractor does not use the protection against dissemination nor
                                    the licensing of data as an alternative to the submittal of invention
                                    disclosures.

Sandia’s Trade Secret               Sandia’s management and operating contract contains no
Licenses Not Covered                provision for the licensing of first-produced data as trade secrets or
by the Management                   Commercially Valuable Information except under a CRADA. 7
and Operating Contract              Sandia’s Chief Counsel for Intellectual Property took the position
                                    that the contract did not prohibit the licensing of trade secrets. The
                                    Chief Counsel referenced the Technology Transfer clauses in the
                                    management and operating contract and stated that the contract
                                    expected that the contractor would use all of the mechanisms
                                    available to it to accomplish the Technology Transfer mission.
                                    However, the DOE Albuquerque Patent Counsel said that the
                                    provisions in the Sandia contract specify what the laboratory is



6
  Mask Works are defined as a series of related images, however fixed or encoded (1) having or representing the
predetermined three-dimensional pattern of metallic, insulating, or semiconductor material present or removed from
layers of a semiconductor chip product; and (2) in which series the relation of the images to one another is that each
image has the pattern of the surface of one form of the semiconductor chip product.
7
  Neither the Axsun trade secret license nor the majority of the trade secret licenses issued to the 10 other companies
involved CRADA data.


Page 5                                                                                      Details of Findings
                        allowed to do, and that the laboratory’s right to license trade
                        secrets is not specified within the contract.

                        The DOE Albuquerque Patent Counsel’s position was supported
                        by DOE’s Assistant General Counsel for Technology Transfer and
                        Intellectual Property, the Deputy Assistant General Counsel for
                        Litigation, the former Assistant Chief Counsel for Intellectual
                        Property, the DOE-Albuquerque Branch Chief for Technology
                        Partnerships, and the DOE-Albuquerque Patent Reviewer for
                        Defense Programs. In a memorandum dated July 27, 2001, the
                        Contracting Officer directed Sandia’s Vice President, Business
                        Management and Chief Financial Officer, to suspend any further
                        licensing efforts, any pending licensing agreements, and the
                        issuance of any new licenses agreements of “know-how,” CVI, or
                        trade secrets without the expressed written approval of the
                        Albuquerque Patent Counsel.

Sandia’s Assertion of   Sandia included two copyright packages in the Axsun license that
Copyright Was Not       were not approved by DOE as required by the management and
Approved by DOE         operating contract. Specifically, Sandia included a Scanner
                        Control Software and a Plating Tank Control Software in the
                        Axsun license that were not approved by DOE. The management
                        and operating contract states that the contractor shall submit in
                        writing to the DOE Patent Counsel its request to assert copyright
                        on data first-produced in the performance of the contract. The
                        Director of Sandia-California’s Legal and Patent Center said that
                        this omission was inadvertent, and that it was his understanding
                        that the items were “in the process for DOE approval.” However,
                        at the conclusion of this inspection, Sandia had yet to submit its
                        request to assert copyright in these two instances.

Sandia’s Adherence to   On April 17, 1998, the DOE Assistant General Counsel for
Department Policy on    Technology Transfer and Intellectual Property signed a
Trade Secret Licenses   memorandum which outlined the Department’s policy on trade
                        secret licensing. This memorandum stated that some contractors
                        may have established the practice of granting licenses in
                        technology that was not covered by Intellectual Property
                        protections such as copyright for software and mask works or
                        patents and patent applications for inventions or statutorily
                        recognized licensable material, such as protected CRADA
                        information. It stated that the practice amounted to the “licensing
                        of know-how and the creation and maintenance of trade secrets.”
                        The memorandum also stated that there was no basis in law for a
                        contractor to claim such protection of data, and that any licensing
                        of unprotected information was strictly against DOE policy and




Page 6                                                                 Details of Findings
                            violates the DOE statutory mandate to widely disseminate results
                            of research and development efforts at the DOE facilities.
                            Sandia had possession of the April 17, 1998, memorandum as early
                            as June 1998. In addition, prior to the issuance of this
                            memorandum, the Albuquerque Patent Counsel and the Assistant
                            General Counsel for Technology Transfer and Intellectual Property
                            had advised Sandia repeatedly that they were not entitled to grant
                            trade secret protection for Federally funded research.

Sandia Disregarded the Despite being advised by DOE, both verbally and in writing,
Department’s Policy on Sandia disregarded the Department’s policy on trade secret
Trade Secret Licenses licenses. In fact, Sandia issued six of their reported 11 trade secret
                       licenses after the April 17, 1998, memorandum.

                            According to the DOE Assistant General Counsel for Technology
                            Transfer and Intellectual Property, the April 17, 1998,
                            memorandum served as DOE’s interpretation of the law. The
                            Assistant General Counsel stated that, in the past, if there were
                            disagreements, the laboratories would challenge his interpretations
                            through a letter or phone call. However, he said that, instead of
                            challenging the interpretation on trade secret licensing, Sandia
                            ignored the April 17, 1998, memorandum.

                            Sandia provided us a document dated June 15, 1998, and marked
                            as an “Attorney Work Product.” In the document, Sandia analyzed
                            the April 17, 1998, memorandum and the issue of whether Sandia
                            could license Commercially Valuable Information. Sandia
                            concluded that “Neither Sandia’s M&O Contract, nor statute, nor
                            regulation creates an express prohibition against CVI, generally,
                            and the contract does permit licensing of CRADA information.”
                            However, Sandia did not use this analysis to open any discussion
                            with DOE on the legitimacy of CVI licensing, and did not
                            challenge DOE on the policy contained in the April 17, 1998,
                            memorandum.

                            According to Sandia’s Chief Counsel for Intellectual Property, the
                            April 17, 1998, memorandum was not part of the contract. He said
                            that the memorandum would have to be transmitted via a
                            Contracting Officer before Sandia would be required to follow it.
                            He said that, since this was not done, the April 17, 1998,
                            memorandum was not applicable to Sandia. He stated that the
                            memorandum was from one DOE Patent Counsel to other DOE
                            Patent Counsels. The Chief Counsel said Sandia did not hide the
                            issuance of licenses, nor did they advertise their licenses. He said
                            it was simply business as usual. The Chief Counsel said Sandia
                            did not need to tell DOE that they were not going to follow the



Page 7                                                                   Details of Findings
                                    guidance in the 1998 memorandum. He believed that the
                                    memorandum was not relevant and not binding. The Director,
                                    Sandia-California Legal and Patents Center, expressed a similar
                                    disregard for the April 17, 1998, memorandum.

                                    However, the former DOE Contracting Officer for the Sandia
                                    management and operating contract said that Sandia is picking and
                                    choosing the guidance it wants to use. She said that Sandia has the
                                    obligation to go to DOE if it needs clarification. 8 The current DOE
                                    Contracting Officer informed Sandia in a July 27, 2001,
                                    memorandum that its practice of trade secret licensing was
                                    contrary to express DOE policy and instructions as set out in the
                                    April 17, 1998, memorandum. As stated earlier in the report, the
                                    Contracting Officer directed Sandia to suspend any further
                                    licensing efforts, any pending licensing agreements, and the
                                    issuance of any new licenses agreements of “know-how,” CVI, or
                                    trade secrets without the expressed written approval of the
                                    Albuquerque Patent Counsel.

Sandia Claimed Policy               Sandia also claimed that stockpile requirements of the National
Was Obsolete                        Nuclear Security Administration (NNSA) made the April 17, 1998,
                                    memorandum obsolete. The Director, Sandia-California Legal and
                                    Patent Center, stated that “We have carefully weighed the April
                                    1998 memo. Whatever its vitality then, it now seems largely
                                    obsolete in view of NNSA requirements for the stockpile of the
                                    future.” However, Section 3296 of Title XXXII of the National
                                    Defense Authorization Act for Fiscal Year 2000 establishing the
                                    National Nuclear Security Administration does not support this
                                    position. Section 3296 states that “Unless otherwise provided in
                                    this title, all provisions of law and regulations in effect
                                    immediately before the effective date of this title that are
                                    applicable to functions of the Department of Energy specified in
                                    Section 3291 [functions transferred] shall continue to apply to the
                                    corresponding functions of the Administration.” In addition, the
                                    Acting Director for DOE’s Defense Programs’ Systems
                                    Engineering and Manufacturing Division said there has not been a
                                    radical change to Defense Programs’ mission that would make any
                                    guidance obsolete.




8
  This position is consistent with FAR 43.104, which states that when a contractor considers that the Government
has effected or may effect a change in the contract that has not been identified as such in writing and signed by the
Contracting Officer, it is necessary that the contractor notify the Government in writing as soon as possible.


Page 8                                                                                     Details of Findings
The Department’s          The Department of Energy has a mandate to widely disseminate
Statutory Mandate to      the results of research and development at DOE facilities. This
Widely Disseminate the    mandate first appears in the Atomic Energy Act of 1954. Section
Results of Research       12 of the Atomic Energy Act states that it is DOE’s responsibility
and Development at        to disseminate scientific and technical information. The Atomic
DOE Facilities            Energy Act also states that no arrangements shall contain any
                          provisions or conditions which prevent the dissemination of
                          scientific or technical information except to the extent such
                          dissemination is prohibited by law. Similar provisions are found in
                          the Energy Reorganization Act of 1974 (see Appendix II) and the
                          Federal Nonnuclear Energy Research and Development Act of
                          1974. These principles are also restated in the 1977 Department of
                          Energy Organization Act, where the scope of the subject matter
                          was extended from atomic energy to all energy sources.

Sandia’s Actions Were     Sandia’s actions were not consistent with the Department’s
Not Consistent With the   statutory mandate to widely disseminate the results of research and
Department’s Statutory    development at DOE facilities. Sandia created an unauthorized
Mandate to Widely         form of intellectual property protection (i.e., a trade secret) not
Disseminate the           covered by any management and operating contract clause or
Results of Research       statute.
and Development at
DOE Facilities            Sandia’s Chief Counsel for Intellectual Property claimed that he
                          did not know of a DOE statutory mandate to widely disseminate
                          the results of research and development efforts at DOE facilities.
                          The Director, Sandia-California Legal and Patent Center, said the
                          DOE Assistant General Counsel’s position in the April 17, 1998,
                          memorandum was taken seriously, but that Sandia believed that it
                          was legal to issue trade secret licenses. He said the requirement to
                          widely disseminate the results of research and development efforts
                          at DOE facilities was a high-level statement of one of DOE’s
                          missions. He said he believed that the statement means that DOE
                          is not supposed to generate information and hold it. He stated that
                          trade secret licensing is consistent with the mission statement in
                          carrying out the statutory goal, and that the only reason Sandia
                          created trade secret licenses was to disseminate information. The
                          Director contends that the Assistant General Counsel’s position in
                          the April 17, 1998, memorandum inhibited Sandia from using the
                          authority that the regulations provided.

                          In the June 15, 1998, document marked as “Attorney Work
                          Product,” Sandia concluded the language in the Federal
                          Nonnuclear Energy Research and Development Act of 1974,
                          which allowed the Administrator of the Energy Research and
                          Development Administration to make the benefits of energy
                          research, development and demonstration program widely



Page 9                                                                 Details of Findings
                                   available to the public in the shortest practical time, was different
                                   from stating an explicit obligation to widely disseminate results of
                                   research and development efforts. The “Attorney Work Product”
                                   document also stated that the statute provided a methodology for
                                   making waiver decisions, and not an independent mandate to
                                   disseminate information. This document stated that the statute did
                                   not provide a specific mandate of the nature and scope suggested
                                   by the April 17, 1998, memorandum.

                                   However, Sandia’s interpretation was not consistent with DOE
                                   policy regarding the licensing of trade secrets. 9 DOE’s
                                   April 17, 1998, memorandum clearly stated that licensing of trade
                                   secrets would violate the DOE statutory mandate to widely
                                   disseminate results of research and development efforts at DOE
                                   facilities. In addition, the Office of Management and Budget,
                                   under OMB Circular A-130, requires that agencies avoid
                                   establishing, or permitting others to establish on their behalf,
                                   exclusive, restricted, or other distribution arrangements that
                                   interfere with the availability of information dissemination
                                   products on a timely and equitable basis. The DOE Assistant
                                   General Counsel for Technology Transfer and Intellectual Property
                                   developed policy on trade secrets consistent with the Department’s
                                   statutory mandate. Sandia disregarded that policy when it entered
                                   into the Axsun and other trade secret licenses.

Sandia’s Use of the                The DOE regulations implementing the Freedom of Information
Provisions of the                  Act are contained in 10 Code of Federal Regulations (C.F.R.) Part
Freedom of Information             1004. Part 1004 provides information concerning the procedures
Act to Justify Their               under which members of the public may request records from all
Trade Secret Licensing             DOE offices excluding the Federal Energy Regulatory
Activities                         Commission. Section 1004.3(e)(2) states that contractor records
                                   owned by the Government that contain information or technical
                                   data having commercial value 10 “shall be made available only
                                   when they are not in the possession of the Government and not
                                   otherwise exempt under 5 U.S.C. [United States Code] 552(b).”
                                   Section 1004.3(e)(3) affirms DOE’s rights to control the
                                   disposition of all technology and information and to request from
                                   the contractor any records owned by DOE (see Appendix II).



9
   Sandia’s management and operating contract states that a Contracting Officer shall be the only individual on
behalf of the Government to waive any requirement of the contract, or to modify any term or condition of the
contract.
10
    For purposes of § 1004.3 (e)(2), “technical data and information having commercial value” means technical data
and related commercial or financial information which is generated or acquired by a contractor and possessed by
that contractor, and whose disclosure the contractor certified to DOE would cause competitive harm to the
commercial value or use of the information data.


Page 10                                                                                 Details of Findings
Sandia Assumed a                   Sandia took the position that the Freedom of Information Act
Licensable Property                allowed it to license Commercially Valuable Information and
Right for Commercially             protect the information from public disclosure. However, Sandia’s
Valuable Information               issuance of trade secret licenses assumed a licensable property
that Did Not Exist                 right for Commercially Valuable Information that did not exist.
                                   The DOE regulations that implement the Freedom of Information
                                   Act (FOIA) only reference Commercially Valuable Information in
                                   the context of when contractor records that contain information or
                                   technical data having commercial value shall be made available to
                                   members of the public under a FOIA request. The Department’s
                                   FOIA regulations do not express or imply the right to license
                                   Commercially Valuable Information. The DOE FOIA regulations
                                   recognize DOE’s right under contract to obtain any contractor
                                   records DOE owns and to determine their disposition, including
                                   public dissemination (see Appendix II). Sandia did not allow for
                                   DOE’s rights to obtain the information or technical data contained
                                   in the trade secret licenses, and disregarded DOE’s right to
                                   determine the disposition of this information or technical data.

Sandia’s Actions        Sandia’s issuance of trade secret licenses has created two potential
Created Two Potential risks to the Department. First, the information included in the
Risks to the Department trade secret licenses was not reviewed by DOE to determine if the
                        information should be releasable. Under recognized forms of
                        intellectual property protection, there are processes in place where
                        the information is reviewed to determine if the information should
                        be releasable. For example, with regard to inventions funded by
                        Defense Programs, Sandia or the inventor employee are required to
                        provide to DOE Patent Counsel a supporting statement addressing
                        whether: (1) national security will be compromised by licensing;
                        (2) sensitive technical information under the nuclear weapons
                        program or other defense activities of DOE will be released to
                        unauthorized persons; and (3) there is export controlled material
                        and how such material will be protected. 11 The election to retain
                        title to Defense Programs funded inventions is subject to the
                        independent concurrence of a designated Defense Programs
                        Military Applications Field Program official and approval by DOE
                        Patent Counsel.

                                   The information and technical data included in the Axsun license
                                   were developed under Defense Programs funding. In the case of
                                   the Axsun license, Sandia states that “Without CVI protection,
                                   DOE’s LIGA information would be available to foreign economic
                                   and military adversaries.” Sandia also stated that “The LIGA
                                   records comprise recipes for producing small parts,” and that “We

11
  The requirement regarding Defense Programs inventions reflects the statute requiring such special treatment. See
35 U.S.C. 202 (a)(iv).


Page 11                                                                                 Details of Findings
                         will transfer these recipes to Kansas City for weapons
                         components.” However, the information included in the Axsun
                         license was not reviewed by the DOE Patent Counsel or Defense
                         Programs officials under the process required for Defense
                         Programs funded inventions. While the information provided to
                         Axsun might not constitute an invention, there was no process that
                         would have allowed the Department an opportunity to determine
                         under what conditions, if any, the information should be released.
                         By creating a form of intellectual property protection (i.e., a trade
                         secret) not covered by any contract clause, and by not disclosing its
                         trade secret licensing activity to DOE, Sandia created the risk of
                         allowing information or technical data to be released that was not
                         reviewed by DOE for consideration of national security interests.

                         In addition, Sandia created a potential liability on behalf of the
                         Government in violation of the management and operating
                         contract. Specifically, the Patent Rights Clause states that “the
                         Contractor shall not include in any license agreement or
                         assignment, any guarantee or requirement which would obligate
                         the Government to pay any costs or create any liability on behalf of
                         the Government.” By issuing the Axsun license, Sandia attempted
                         to “guarantee” that DOE would not release the technical
                         information that made up the trade secret. This guarantee was
                         made without the concurrence or knowledge of DOE. Because
                         DOE owns the information or data included in the trade secret
                         licenses, DOE may be placed in a position where it must release
                         the information or technical data as a result of a request from
                         Congress, the General Accounting Office, the Office of Inspector
                         General, or under FOIA. If DOE were to release the information
                         or technical data included in the trade secret licenses, DOE could
                         risk legal action by licensees for breaching the trade secret license
                         agreements.

The Collection of        Since 1995, Sandia has collected and retained royalties on at least
Royalties on Trade       eight trade secret licenses that were not authorized by the
Secret Licenses Are      Department, and that were not consistent with the provisions of the
Questionable Under       management and operating contract and DOE policy. The fees
the Management           collected on these licenses totaled $617,422. Under DEAR
and Operating Contract   970.5204-40, “TECHNOLOGY TRANSFER MISSION,”
                         Subsection (h), “Disposition of Income,” “Royalties or other
                         income earned or retained by the Contractor as a result of
                         performance of authorized technology transfer activities
                         [emphasis added] herein shall be used by the Contractor for
                         scientific research, development, technology transfer, and
                         education at the Laboratory, consistent with the research and
                         development mission and objectives of the Laboratory….”



Page 12                                                                Details of Findings
                                   DEAR 970.5204-40, “TECHNOLOGY TRANSFER MISSION,”
                                   Subsection (h), “Disposition of Income,” also states that “Under no
                                   circumstances shall these royalties and income be used for an
                                   illegal augmentation of funds furnished by the U.S. Government.”

                                   However, royalties received by Sandia pursuant to trade secret
                                   licenses did not result from the performance of an authorized
                                   technology transfer activity. Since there was no statutory,
                                   contractual, or other authority for Sandia to enter into trade secret
                                   licenses, the question is raised as to whether Sandia inappropriately
                                   augmented its funds, contrary to the DEAR. The Department of
                                   Energy Chief Financial Officer’s Accounting Handbook 12 states
                                   that, as a general rule, all collections received by DOE shall be
                                   deposited as miscellaneous receipts into the General Fund of the
                                   Treasury unless otherwise authorized by statute or under other
                                   provisions of the Accounting Handbook. It also states that
                                   retaining and using collections that DOE should have deposited as
                                   miscellaneous receipts is an augmentation of DOE’s appropriation.
                                   We concluded that the Department needs to review the collection
                                   and retention of the trade secret licensing fees received by Sandia,
                                   and determine if Sandia should be allowed to retain these fees, or
                                   be required to deposit the $617,422 into the General Fund of the
                                   Treasury.

Sandia’s Trade Secret              Sandia’s trade secret licensing activity may have resulted in
Activities May Have                unallowable costs under their management and operating contract.
Resulted in                        Sandia incurred the costs of preparing and negotiating at least
Unallowable Costs                  eleven trade secret licenses. Under DEAR 970.5204-40,
                                   “TECHNOLOGY TRANSFER MISSION,” Subsection (c),
                                   “Allowable Costs,” the costs associated with the conduct of
                                   technology transfer shall be deemed allowable provided that such
                                   costs meet the requirements of the allowable cost provisions of the
                                   contract. DEAR 970.5204-13, ALLOWABLE COSTS, AND
                                   FIXED-FEE (MANAGEMENT AND OPERATING
                                   CONTRACTS), Subsection (c), “Allowable Costs,” states that the
                                   allowable costs of performing the work under this contract shall be
                                   the costs and expenses that are actually incurred by the contractor
                                   in the performance of the contract work in accordance with its
                                   terms.

                                   However, the licensing of trade secrets was not performed in
                                   accordance with the terms of the management and operating

12
   The Chief Financial Officer’s Accounting Handbook is made part of the Management and Operating Contract
under DOE Order 534.1 which states that “In addition to all specific rules and requirements related to the
establishment and maintenance of an integrated accounting system, the contractor shall follow the procedures as
specified in the Department of Energy’s Chief Financial Officer’s Accounting Handbook.”


Page 13                                                                                 Details of Findings
                                     contract. In fact, Sandia was informed by the DOE Contracting
                                     Officer on July 27, 2001, in a memorandum to the Sandia Vice
                                     President, that Sandia’s practice of trade secret licensing was
                                     contrary to express DOE policy and instructions as set out in the
                                     April 17, 1998, memorandum. The Contracting Officer directed
                                     Sandia to suspend any further licensing efforts, any pending
                                     licensing agreements, and the issuance of any new licenses
                                     agreements of “know-how,” CVI, or trade secrets without the
                                     expressed written approval of the Albuquerque Patent Counsel.
                                     Given the contract language on “ALLOWABLE COSTS,” and the
                                     position taken by the Contracting Officer, the costs incurred in
                                     connection with this unauthorized licensing activity may be
                                     unallowable. We concluded that the Department should determine
                                     if the costs associated with Sandia’s trade secret licensing activity
                                     are unallowable.

Trade Secret License                 The Axsun trade secret license was issued, at least in part, to
Issued to Facilitate                 facilitate the transfer of two Sandia scientists 13 to Axsun.
Transfer of Sandia                   According to the two former Sandia employees, they signed letters
Employees Without                    of intent to work for Axsun around December 1999 or January
Adequate Conflict of                 2000. The Sandia Deputy Director for the Materials Engineering
Interest Determination               Sciences Center (under which LIGA has been developed) stated
                                     that once the two employees discussed their intent to work for
                                     Axsun, she wrote a letter to the company. The letter, dated
                                     January 21, 2000, stated:

                                              Intellectual Property encompassing Sandia’s LIGA
                                              technology may include patents, copyrights and
                                              trade secrets (we call trade secrets ‘CVI’). It is
                                              understood that [the two employees], who are
                                              currently Sandia employees, are being considered
                                              for employment by Axsun in connection with the
                                              foundry. [The two employees] have custody of a
                                              portion of Sandia’s CVI and are legally bound not
                                              to disclose it without permission. Accordingly,
                                              Axsun will need a license from Sandia to use this
                                              CVI, as well as other related IP. Sandia is prepared
                                              to offer Axsun a nonexclusive license, in a field-of-
                                              use that bears a reasonable royalty.

                                     According to the Sandia Deputy Director, Axsun knew that the two
                                     employees could not work on the LIGA technology without a
                                     license. She said that when the employees first started working for
                                     Sandia, they signed an Employee Proprietary Information and
                                     Innovation Agreement. This agreement stated that the employee
13
     One scientist is on Entrepreneurial Leave that expired in February 2002.


Page 14                                                                             Details of Findings
                      would not disclose proprietary or sensitive information (including
                      manufacturing procedures and production techniques) which came
                      into their possession in the course of their employment.

                      Sandia claimed that “The availability of CVI protection allowed
                      Sandia to attract an industrial partner to an arrangement that serves
                      both competitiveness and national security goals,” and that Sandia
                      “uses CVI protection solely to make information that cannot be
                      patented more attractive to industry.” However, it is clear that
                      these were not the only reasons Sandia chose to use CVI
                      protection. In the case of Axsun, the CVI protection was used as a
                      means of avoiding any concern about possible violations of Sandia
                      disclosure agreements, thus facilitating the transfer of two Sandia
                      employees to Axsun.

Sandia Did Not Have   The DEAR 970.5204-40, “TECHNOLOGY TRANSFER
a Process For         MISSION,” Subsection (d), “Conflict of Interest – Technology
Addressing Conflict   Transfer,” states that “The Contractor shall develop implementing
of Interest Under a   procedures that seek to avoid employee and organizational
Trade Secret          conflicts of interests, or the appearance of conflicts of interests, in
License               the conduct of its technology transfer activities.” The
                      implementing procedures provided by Sandia with respect to this
                      requirement address their contractually recognized CRADA
                      activities. Sandia’s implementing procedures require the
                      identification of those individuals having potential conflicts of
                      interest, and the development of certain determinations of the
                      potential for a conflict of interest and plans for mitigation which
                      must be forwarded to DOE for review. Sandia’s implementing
                      procedures do not specifically address trade secret licenses, since
                      trade secrets are not a recognized technology transfer activity.

                      In the case of the Axsun license, the two Sandia employees were
                      negotiating with Axsun concerning prospective employment prior
                      to the license, and each received $13,680 as their share of the
                      $400,000 royalty Axsun paid for the CVI. These two employees
                      were considered to be core producers of the CVI and provided
                      prototypes to Axsun to show the merits of LIGA. However,
                      Sandia did not submit for DOE review any determination for the
                      potential of a conflict of interest or any plan for mitigation. Sandia
                      did not have a process for addressing the potential of a conflict of
                      interest under a trade secret.




Page 15                                                               Details of Findings
RECOMMENDATIONS   We recommend that DOE General Counsel:

                  1. Survey all Department facilities that generate intellectual
                     property and determine if any facilities other than Sandia are
                     issuing licenses for “know-how,” “CVI,” or “trade secrets,”
                     and take appropriate action if other violations of DOE policy
                     are found.

                  2. Issue formal guidance to all Department facilities that generate
                     intellectual property on the implementation of 10 C.F.R. §
                     1004.3.

                  3. Review the concept of licensing technical information with
                     commercial value to determine if there are licensing
                     mechanisms that do not compromise DOE’s statutory mandate,
                     and that would protect the interests of the Department, the
                     contractor, and the licensee.

                  We recommend that the Albuquerque Patent Counsel:

                  4. Review all Sandia licenses that contain trade secret
                     information, and determine if these licenses can be modified to
                     comply with the management and operating contract, DOE
                     Policy, and the DOE statutory mandate, or if it would be in the
                     best interest of the public to revoke these licenses and explore
                     other methods of intellectual property protection.

                  We recommend that the DOE Contracting Officer:

                  5. Review the collection and retention of the royalty fees received
                     by Sandia under trade secret licenses, and determine if Sandia
                     should be allowed to retain these fees, or if these fees
                     represented miscellaneous receipts that should have been
                     deposited into the General Fund of the Treasury.

                  6. Determine if Sandia’s actions resulted in an inappropriate
                     augmentation of its funds in violation of the Department of
                     Energy Acquisition Regulations.

                  7. Take appropriate action to recover the royalty fees if Sandia’s
                     collection and retention of $617,422 in royalty fees constituted
                     miscellaneous receipts and/or resulted in an inappropriate
                     augmentation of funds.




Page 16                                                        Recommendations
             8. Review the costs incurred by Sandia in developing the trade
                secret licenses, and determine if these costs are allowable or if
                Sandia must reimburse these costs to the Department.

             9. Review the facts and circumstances surrounding the issuance
                of the Axsun license and determine if there was either a
                conflict of interest, or an appearance of a conflict of interest, in
                violation of DEAR 970.5204-40.

             10. Review the actions of Sandia officials involved in the issuance
                 of trade secret licenses, and take appropriate actions based
                 upon this review.


MANAGEMENT   In response to a draft of this report, the Albuquerque Operations
COMMENTS     Office (Albuquerque) provided comments signed by the Acting
             Chief Counsel. The Albuquerque Operations Office concurred
             with recommendations 1 through 10. In Albuquerque’s comments,
             the Acting Chief Counsel and the Patent Counsel provided a
             number of comments and suggested changes intended to clarify
             and reinforce certain aspects of the report findings. In response,
             the report was modified where appropriate.

             In addition to these comments and suggested changes, the Acting
             Chief Counsel also provided a number of general comments on the
             conditions identified in the draft report. Because of the
             voluminous nature of these comments, we have not included them
             verbatim. However, the following provides a summary of the most
             significant comments.

             The Acting Chief Counsel stated that the Sandia personnel
             involved in instigating the practice of licensing trade secrets have
             fully acknowledged that, under the contract, “first-produced data
             cannot be licensed as a trade secret.” He stated that they were
             advised both verbally and in writing over the course of
             approximately 10 years that DOE policy and their customer’s
             (DOE’s) wishes prohibited creation, maintenance, or licensing of
             trade secrets, and that they made a conscious decision to violate
             that policy. He further stated that, from December 2000 to March
             2001, and then again in the summer of 2001, the primary defense
             that Sandia provided for its actions was the allegation that AL’s
             previous Patent Counsel had told Sandia’s Chief Counsel –
             Intellectual Property, that Sandia could license CVI, know how, or
             trade secrets but to keep it secret from DOE. He also stated that
             this defense has proven untrue.




Page 17                                             Management Comments
          The Acting Chief Counsel stated that Sandia personnel have
          insisted they were fully supported by Sandia management in their
          efforts, and that DOE should not have to bear any costs of a
          prohibited licensing activity that was conducted in secrecy.

          In addition, the Acting Chief Counsel stated Sandia’s claims of
          creating value for DOE Programs and industry are completely
          invalid. He also stated that, other than income to Sandia, “there is
          no value to DOE Program or industry that could not be obtained by
          the numerous forms of technology transfer authorized by DOE.”
          Further, he stated that Axsun has been particularly disadvantaged
          by the license it paid heavily for, in that it could have had free use
          of all the data covered by the license. He pointed out that if, for
          example, a Funds-in agreement had been negotiated, it could have
          had some form of ownership or control of intellectual property
          derived from work performed under a Funds-in agreement. Sandia
          has never been able to explain the advantage of this license to
          Axsun, according to the Acting Chief Counsel.

          The Acting Chief Counsel noted that, with respect to technology
          transfer (of which licensing is a part), DOE’s facilities and
          laboratories are prohibited from competing with the private sector.
          He stated that the trade secret area of intellectual property
          management is primarily about putting the holder of the trade
          secret in the strongest possible competitive position. The Acting
          Chief Counsel stated that Sandia has violated the prohibition
          against competition.

          The Acting Chief Counsel stated it is never a bad idea to review
          existing policies and procedures for change and improvement; and
          that reviewing the concept of licensing technical information to
          find licensing mechanisms that do not compromise DOE policy
          and its statutory mandates would be desirable. However, he stated
          that the creation, maintenance and licensing of trade secrets will
          never be appropriate for a federally-funded technology transfer
          program. He also stated that Sandia, however, continues to push
          the concept of trade secrets because “it allows the Lab the
          maximum amount of control with the least amount of
          accountability, by virtue of the secrecy factor.”

          The Acting Chief Counsel stated the Sandia Director, California
          Legal and Patent Center, relies on only one paragraph--
          Technology Transfer Mission, subparagraph (a)(2)--in Sandia’s
          contract and ignores the obligations in all other clauses and
          paragraphs of this clause, to justify the trade secret licensing
          program. The Acting Chief Counsel stated that “the licensing of



Page 18                                         Management Comments
          trade secrets also requires the non-performance of the obligations
          of the Patent Rights, Technical Data, and Technology Transfer -
          Mission Clauses of Sandia’s Contract.” The Acting Chief Counsel
          also stated that, “in every instance where a Sandia trade secret has
          been created, Sandia has deliberately failed to perform vital
          obligations of its contract.”

          The Acting Chief Counsel stated that, for informational purposes,
          two copyright packages that were licensed to Axsun were
          ultimately submitted and approved, but not until considerably after
          the Axsun license was in place. He stated, because of that, Sandia
          had no right to commercially license the software that had not been
          previously approved. He also stated the LIGA Scanner Control
          Software and the Plating Tank Control Software were originally
          explained as being general descriptions of a number of software
          packages, such that individual software programs in the packages
          should be submitted for approval. The Acting Chief Counsel
          stated that has never happened.

          The Acting Chief Counsel also stated that if the terms and
          conditions of the Axsun license are to be met, it is questionable
          whether the obligations accompanying the software approval will
          be met (e.g., submission to the Energy Software and Technology
          Center), in which case approval should be withdrawn. The Acting
          Chief Counsel noted that the failure to submit can hardly be
          inadvertent, since the Axsun license is dated June 2000 and his
          office repeatedly requested submission of the software from the
          Director – California Legal and Patent Center after the December
          2000 notice that the Axsun license existed. He stated these
          software packages were submitted to his office for approval in
          October 2001, and that “the time disparity suggests that what was
          licensed to Axsun was not necessarily what was ultimately
          submitted for approval; if so, that situation has not been corrected.”

          The Acting Chief Counsel stated that “since DOE owns everything
          developed at Sandia at origination, the waivers that allow Sandia to
          pursue technology transfer, as well as the delegation of authority in
          many related areas, are based on a history of cooperation between
          Sandia and DOE, particularly in areas where the contract is not
          explicit.” He stated that, in those areas, Sandia has previously
          looked to DOE for instruction and interpretation of its contractual
          obligations. He stated there has previously been no need for an
          amendment to a contract in order to provide the customer’s
          instructions to the contractor with an expectation that those
          instructions would be complied with. He also stated this is a
          dramatic departure from the spirit of cooperation.



Page 19                                         Management Comments
          The Acting Chief Counsel stated Sandia continues to expect DOE
          not to insist on Sandia’s performing the contract to the letter. He
          also stated that, seemingly, Sandia has developed an internal policy
          where it expects to avoid contract requirements or to insist on
          reading the contract narrowly, depending on what is most
          advantageous to Sandia. He also stated that “Sandia is currently
          still justifying its trade secret licensing practice with the assertion
          that no statute mandates dissemination,” and that “Sandia has
          refused to address the actual dissemination paragraphs in the
          various statutes that are applicable.”

          In addition, the Acting Chief Counsel stated that one Sandia
          defense for ignoring its contractual requirements has been that the
          technology licensed to Axsun is too sensitive to be reported to
          DOE and/or to be patented. He stated this defense is also invalid,
          and that, “in fact, if the technology is sensitive, even if not
          classified or UCNI [Unclassified Controlled Nuclear Information],
          DOE AL Program’s cognizant program official would not approve
          Sandia’s election of title for such technology, thus preventing
          Sandia from commercializing such technology at all.”

          The Axsun license falsely represents to a private sector entity that
          Sandia owns or permissibly controls the licensed technology and
          information, according to the Acting Chief Counsel. He stated that
          Sandia does not own the information that it licensed in any of its
          CVI licenses, and that DOE has not given permission to Sandia to
          license the information or to “control” it in the sense Sandia is
          representing to the public; and that this is true of all CVI licenses.
          He also stated Sandia is misrepresenting the facts to induce private
          sector parties to pay for rights that Sandia cannot give.

          Such inappropriate action on the part of a Government-owned
          national laboratory creates a liability for DOE, according to the
          Acting Chief Counsel. He stated that, since the CVI information is
          owned by the Government under the M&O contract provisions,
          Sandia simply does not have the right to license such Government-
          owned information. He also stated it is questionable whether
          Sandia could even be given such a right because licensing of
          Government-owned information is an “inherently Governmental
          function.”

          The Acting Chief Counsel stated that forcing a private sector party
          to obtain a license by misrepresenting the facts about that party’s
          ability to use Sandia’s information and technology without the
          license is unacceptable. He stated that since neither Sandia nor the



Page 20                                          Management Comments
          two employees who went to work for Axsun owned the
          information and technology licensed to Axsun, Axsun did not need
          a license to obtain the technology and could have obtained a
          legitimate arrangement from DOE that would have allowed Axsun
          access to the technology and information, even to have the two
          employees work on the technology. He also stated that, “under
          these circumstances, the royalty charged is hardly reasonable.” He
          went on to state that “the Sandia Deputy Director who is
          apparently in a position to deal with the public, knew or should
          have known this;” and that, “certainly, Sandia-California Legal
          staff and Sandia – California Technology Transfer staff were
          aware that Axsun was not being provided accurate disclosure of
          the facts.”

          The Acting Chief Counsel stated that by choosing CVI protection,
          Sandia obtained secrecy, which, in this case, allowed Sandia more
          control, to the detriment of both DOE and Axsun. He stated that
          “Sandia also chose a non-exclusive license to avoid the
          requirement for DOE approval because of the involvement of the
          former employees; nonexclusivity in connection with a CVI or
          trade secret license makes no sense.” According to the Acting
          Chief Counsel, “the reasons given by Sandia are invalid; Sandia
          appears to have been motivated by the desire to obtain the most
          money with the least amount of accountability.”

          In his response to the draft report, the DOE Deputy General
          Counsel, Technology Transfer and Procurement, concurred with
          the recommendations directed to his office, recommendations 1, 2
          and 3. The Deputy General Counsel also provided a number of
          comments and suggested changes intended to clarify and reinforce
          certain aspects of the report findings. In response, the report was
          modified where appropriate.

          In addition to comments and suggested changes, the Deputy
          General Counsel provided some general comments on the
          conditions identified in the draft report. As we did with the
          Albuquerque Operation Office comments, we have not included
          the Deputy General Counsel’s comments verbatim because of the
          voluminous nature of these comments. However, the following
          provides a summary of the most significant comments.

          The Deputy General Counsel stated that a non-exclusive license,
          such as issued by Sandia, does not help anyone commercialize the
          subject information, since by issuing a nonexclusive license,
          Sandia was still free to issue additional licenses to competitors of
          Axsun. The Deputy General Counsel did not agree that Sandia’s



Page 21                                         Management Comments
            licensing scheme created a benefit for DOE programs of value to
            industry. She said that DOE programs would have obtained the
            same benefit and Axsun would have obtained the equivalent value
            had Sandia provided the technical data to Axsun without restriction
            and royalty fee.

            The Deputy General Counsel stated that DOE’s mandate to
            disseminate information does not categorically require that all
            technical data first-produced must be released to the public in an
            unrestricted manner. In some circumstances, the Department has
            recognized that dissemination can be satisfied by making the
            benefits of the use of first-produced data available to the public.
            According to the Deputy General Counsel, Sandia arrogated to
            itself, without consultation with DOE, the determination of how
            dissemination is satisfied.

            In regards to conflict of interest, the Deputy General Counsel
            stated it is important to note that the management and operating
            contract governs the private use by the management and operating
            contractor and employees of technical data first-produced in
            performance of the management and operating contract. The
            Deputy General Counsel stated that Sandia did not have to resort to
            a license to govern a former employee’s use of the data. She stated
            that once the patent, security and reporting requirements of the
            management and operating contract have been met, both the
            contractor and the ex-employee are free to make private use of
            such data. The Deputy General Counsel stated that if Sandia's
            reasoning is taken to its conclusion, then every national lab
            scientist could not take and use in later employment, information
            he or she had learned through working at the lab, which would
            greatly hinder the academic freedom central to the purpose of the
            national laboratory system. She stated that while the ex-employees
            obtaining permission to use such data would be prudent to assure
            that the management and operating contract and employment
            obligations were complied with, such permission does not justify a
            licensing transaction between Sandia and Axsun.

INSPECTOR   The comments received from the Acting Chief Counsel and the
COMMENTS    Deputy General Counsel, Technology Transfer and Procurement,
            and the actions planned, are responsive to the report’s findings and
            recommendations.




Page 22                                                 Inspector Comments
Appendix I
SCOPE AND     We reviewed allegations surrounding the issuance of trade secret
METHODOLOGY   licenses by Sandia National Laboratories. In reviewing these
              allegations, we evaluated:

              •   Sandia’s justification for issuing trade secret licenses.

              •   Sandia’s process for issuing trade secret licenses.

              •   Sandia’s receipt of royalties for trade secret licenses.

              •   The applicable DOE statutory guidance on the dissemination of
                  the results of research and development activities, as well as
                  DOE policy on trade secret licenses.

              •   The relevant provisions of the Freedom of Information Act and
                  DOE implementing regulations.

              •   Relevant management and operating contract provisions.

              As part of our review, we interviewed Sandia National
              Laboratories officials involved in the issuance of the trade secret
              licenses and the receipt of royalties. We also interviewed
              Department of Energy officials at the Albuquerque Operations
              Office and Department Headquarters. In addition, we reviewed
              documentation relating to the issuance of trade secret licenses,
              including: 1) Sandia’s management and operating contract,
              including relevant provisions of the Federal Acquisition
              Regulations and the Department of Energy Acquisition
              Regulations; 2) the Freedom of Information Act; 3) Technology
              Transfer legislative history; 4) DOE Accounting Handbook;
              5) United States Code establishing the National Nuclear Security
              Administration; 6) DOE and Sandia correspondence, both
              electronic mail and official memorandums; 7) Internal DOE
              correspondence; 8) Internal Sandia correspondence; 9) Sandia’s
              trade secret license to Axsun Technologies; 10) Sandia’s receipt
              register, license administration schedule, and receipt of royalties;
              11) Sandia’s review and approval form for the release of
              information; 12) Sandia National Laboratories CVI Listing;
              13) DOE-Albuquerque’s computer information page on technology
              partnerships; 14) Sandia’s computer information page on
              technology transfer partnerships; 15) Sandia’s computer
              information page on Microsystems Science, Technology, and
              Components; 16) Office and Management Budget’s Circular
              number A-130 on Management of Federal Information Resources;
              and, 17) Axsun Technologies computer information page.



Page 23                                                 Scope and Methodology
          This inspection was conducted between March and November
          2001, in accordance with the “Quality Standards for Inspections”
          issued by the President’s Council on Integrity and Efficiency.




Page 24                                          Scope and Methodology
Appendix II
                                       Relevant Criteria

DEAR 970.5204-40, “TECHNOLOGY TRANSFER MISSION,” Subsection (n), “Technology
Transfer Through Cooperative Research and Development Agreements,” PART (3)(I),
Withholding of Data:

       Data that is first-produced as a result of research and development activities
       conducted under a CRADA and that would be a trade secret or commercial or
       financial data that would be privileged or confidential, if such data had been
       obtained from a non-Federal third party, may be protected from disclosure under the
       Freedom of Information Act as provided in the Stevenson-Wydler Technology
       Innovation Act of 1980, as amended (15 U.S.C. 3710a (c) (7)), for a period as agreed
       in the CRADA of up to five (5) years from the time the data is first-produced. The
       DOE shall cooperate with the Contractor in protecting such data.

The Energy Reorganization Act of 1974:

       …the Administrator shall disseminate scientific, technical, and practical information
       acquired pursuant to this title through information programs and other appropriate means,
       and shall encourage the dissemination of scientific, technical, and practical information
       relating to energy so as to enlarge the fund of such information and to provide that free
       interchange of ideas and criticism which is essential to scientific and industrial progress
       and public understanding.

Freedom of Information Act, 10 C.F.R. § 1004.3 (e) Contractor Records. (1):

       When a contract with DOE provides that any records acquired or generated by the
       contractor in its performance of the contract shall be the property of the Government,
       DOE will make available to the public such records that are in the possession of the
       Government or the contractor, unless the records are exempt from public disclosure under
       5 U.S.C. 552 (b)(2).

Freedom of Information Act, 10 C.F.R. § 1004.3 (e)(2):

       Notwithstanding paragraph (e)(1) of this section, records owned by the Government
       under contract that contain information or technical data having commercial value as
       defined in § 1004.3(e)(4) or information for which the contractor claims a privilege
       recognized under Federal or State law shall be made available only when they are not in
       the possession of the Government and not otherwise exempt under 5 U.S.C. 552(b).

Freedom of Information Act, 10 C.F.R. § 1004.3 (e)(3):

       The policies stated in this paragraph:

       (i) Do not affect or alter contractors’ obligations to provide to DOE upon request
       any records that DOE owns under contract, or DOE’s right under contract to obtain


Page 25                                                                       Relevant Criteria
       any contractor records and to determine their disposition, including public
       dissemination; and

       (ii) Will be applied by DOE to maximize public disclosure of records that pertain to
       concerns about the environment, public health or safety, or employee grievances.

Freedom of Information Act, 10 C.F.R. § 1004.4 (e)(4):

       For purposes of § 1004.3 (e)(2), ‘technical data and information having commercial
       value’ means technical data and related commercial or financial information which is
       generated or acquired by a contractor and possessed by that contractor, and whose
       disclosure the contractor certifies to DOE would cause competitive harm to the
       commercial value or use of the information or data.




Page 26                                                                       Relevant Criteria
                                                                    IG Report No. DOE/IG-0547

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
